1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________________
No. 19-2145
________________________________
RAYMOND BENITEZ, individually and on behalf of all
others similarly situated,
Plaintiff-Appellant,
v.
THE CHARLOTTE-MECKLENBURG HOSPITAL
AUTHORITY, d/b/a Carolinas HealthCare System,
d/b/a Atrium Health,
Defendant-Appellee.
________________________________
Appeal from the United States District Court for the
Western District of North Carolina, at Charlotte.
Robert J. Conrad, Jr., District Judge.
(3:18-cv-00095-RJC-DSC)
________________________________
Argued: January 29, 2021 Decided: March 23, 2021
________________________________

Before GREGORY, Chief Judge, KEENAN, and
QUATTLEBAUM, Circuit Judges.
________________________________

2a
Affirmed by published opinion. Judge Quattlebaum
wrote the opinion, in which Chief Judge Gregory and
Judge Keenan joined.
________________________________
*

*

*

QUATTLEBAUM, Circuit Judge:
This appeal involves the Local Government Antitrust Act of 1984, 15 U.S.C. § 34 et seq. Congress
passed the Act “in order to broaden the scope of antitrust immunity applicable to local governments” after
a surge in the filing of antitrust lawsuits threatened to
“undermine a local government’s ability to govern in
the public interest.” Sandcrest Outpatient Servs., P.A.
v. Cumberland Cnty. Hosp. Sys., Inc., 853 F.2d 1139,
1142 (4th Cir. 1988) (internal quotation marks omitted). Although the Act does not preclude injunctive or
declaratory claims, it immunizes “local government[s]”
from antitrust damages. See 15 U.S.C. § 35. Today, we
consider whether the Charlotte-Mecklenburg Hospital
Authority (the “Hospital Authority”) qualifies as a “local government” under the Act.
The Act defines “local government” in two ways.
First, the Act covers traditional subdivisions of a state,
such as “a city, county, parish, township, village, or
any other general function governmental unit established by State law . . . .” 15 U.S.C. § 34(1)(A). That
provision does not apply here. Second, the Act applies
to more specialized governmental entities, such as “a
school district, sanitary district, or any other special
function governmental unit established by State law
in one or more states.” Id. § 34(1)(B). We must decide
if the Hospital Authority falls into the final category—

3a
a “special function governmental unit established by
State law in one or more states.” Id.
After the Hospital Authority moved for judgment
on the pleadings, the district court concluded that it
was such an entity and, therefore, dismissed the class
action antitrust claims brought by Raymond Benitez
against the Hospital Authority. Benitez now appeals
on two grounds. First, he argues that the Hospital Authority is not a “local government,” and, therefore, not
covered by the Act because it lacks the powers traditionally associated with “local government[s],” such as
the power to tax and issue general obligation bonds.
Second, he contends that, even if the Hospital Authority at one time qualified as a “special function governmental unit,” it has now grown so large—by operating
in three states and generating $11 billion in annual
revenue—that it can no longer be considered a “local
government.”
As to Benitez’s first argument, we disagree. Congress’s broad definition of “local government” does not
impose the requirements he advances, and we decline
to rewrite the Act to include those requirements. As to
Benitez’s second argument, while not addressed by the
district court, it also fails. Despite having some common-sense appeal, it again seeks a limitation not contained in the Act. Accordingly, we affirm.
I.
Benitez—who had been treated at a Hospital Authority inpatient facility in 2016—filed a class action
complaint against the Hospital Authority, alleging violations of Section 1 of the Sherman Act. He alleges
the Hospital Authority “is the second largest public
health system in the United States.” J.A. 12. It is also,

4a
Benitez asserts, the largest inpatient healthcare provider in the Charlotte, North Carolina area, with approximately twelve million patient encounters every
year. Because of this, it receives more than fifty percent of all inpatient revenue in the Charlotte area. According to Benitez, insurers recognize the Hospital Authority’s large market share and—out of necessity—
contract with the Hospital Authority so that Charlotte-area residents can easily receive inpatient services. Thus, in reaching these contractual agreements,
the Hospital Authority’s “market power has enabled it
to negotiate high prices (in the form of high ‘reimbursement rates’) for treating insured patients.” J.A.
12. Additionally, Benitez claims the Hospital Authority “has imposed steering restrictions in its contracts
with insurers.” J.A. 13. He alleges these provisions are
anticompetitive because they preclude “insurers from
providing financial incentives to patients to encourage
them to consider utilizing lower-cost but comparable
or higher quality alternative healthcare providers.”
J.A. 13. And without such incentives, patients are effectively required to go to the Hospital Authority
where the rates are higher.
Previously, the United States Department of Justice and the North Carolina Attorney General’s Office
filed a lawsuit in the Western District of North Carolina (the “Enforcement Action”), seeking a declaration
that the steering restrictions violate Section 1 of the
Sherman Act and an injunction prohibiting the Hospital Authority from seeking, agreeing to or enforcing
any steering restrictions in its insurance contracts.
See Complaint at 11–12, United States v. CharlotteMecklenburg Hosp. Auth., d/b/a Carolinas Healthcare
Sys., No. 3:16-cv-00311-RJC-DCK (W.D.N.C. June 9,

5a
2016), ECF No. 1. After several years of litigation, the
Enforcement Action was resolved by a settlement that
prohibited steering restrictions. See Final Judgment,
United States v. Charlotte-Mecklenburg Hosp. Auth.,
d/b/a Carolinas Healthcare Sys., No. 3:16-cv-00311RJC-DCK (W.D.N.C. April 24, 2019), ECF No. 99.
With claims that mirrored, in large part, the allegations made in the ongoing Enforcement Action, Benitez also asserted that the Hospital Authority’s steering restrictions violated Section 1 of the Sherman Act.
On top of declaratory and injunctive relief, however,
Benitez also sought monetary damages on behalf of a
class of individuals residing in the Charlotte area who
made direct payments for inpatient procedures to the
Hospital Authority.
The Hospital Authority answered, disputing Benitez’s factual allegations, defending the legality of the
steering restrictions and asserting a variety of affirmative defenses, including immunity from damages,
costs and attorneys’ fees pursuant to the Act. Additionally, the Hospital Authority moved for judgment on
the pleadings, arguing that it was immune from monetary damages because it was a “special function governmental unit”—and, therefore, a “local government”—under the Act.1 To that end, it relied in large
part on Sandcrest, which—according to the Hospital
Authority—held that a North Carolina municipal

1

The Hospital Authority also claimed that insured patients
are barred from seeking damages because they are not direct purchasers and that Benitez does not have antitrust standing. Since
the district court did not reach these issues, they are not before
us.

6a
hospital was a “local government” exempt from monetary damages under the Act.
Benitez responded first by detailing the Hospital
Authority’s evolution from a local hospital, “originally
founded in 1943 to provide hospital services to the residents of Charlotte,” to “the largest healthcare system
in North and South Carolina and the second largest
public health system in the United States.” J.A. 80 (internal quotation marks omitted). Next, Benitez argued
that the Hospital Authority is not a “special function
governmental unit” under the Act because “large
healthcare enterprises like [the Hospital Authority]
bear no resemblance to the sorts of entities that the
[Act] and its legislative history mention as examples
of ‘local government’ . . . .” J.A. 89. Finally, Benitez offered an alternative argument—even if the Hospital
Authority is a “special function governmental unit,” it
is nonetheless not a “local government” under the Act
because “Congress cannot possibly have had sprawling
healthcare enterprises like [the Hospital Authority] in
mind when it created an immunity specifically for ‘local’ government entities.” J.A. 92.
The district court found that the Hospital Authority is a “local government” and, therefore, immune
from monetary damages. In making that finding, the
district court detailed the Hospital Authority’s creation and operation under North Carolina law and concluded that it had “powers which are typically characterized as governmental powers.” J.A. 195. The district
court also heavily relied on our Sandcrest decision. It
noted that “[p]reviously, the Fourth Circuit has
granted absolute immunity from antitrust damages to
a municipal hospital established under Chapter 131E
[of the North Carolina General Statutes], upholding

7a
the determination that the hospital qualified as a ‘special function government[al] unit’ under the [Act].”
J.A. 196 (citing Sandcrest, 853 F.2d at 1139). The district court did not, however, address Benitez’s alternative argument that the Hospital Authority’s multistate operations and explosive growth precluded a
finding that it was a “local government.” The district
court then stayed Benitez’s claim for injunctive relief
pending a resolution of the Enforcement Action. After
the Enforcement Action settled, the Hospital Authority filed a renewed motion for judgment on the pleadings, which Benitez did not oppose. The district court
granted the motion, dismissing all claims against the
Hospital Authority.
Benitez filed a timely Notice of Appeal, and we
have jurisdiction over the appeal. 28 U.S.C. § 1291.
II.
A.
Before addressing Benitez’s arguments on appeal,
we begin with some history. “Congress enacted the
Sherman Act in 1890.” Summit Health, Ltd. v. Pinhas,
500 U.S. 322, 328 (1991). Section 1 of the Sherman Act
prohibits “[e]very contract, combination in the form of
trust or otherwise, or conspiracy, in restraint of trade
or commerce . . . .” 15 U.S.C. § 1. This provision works
in conjunction with Section 4 of the Clayton Act, which
provides a private right of action for violations of the
Sherman Act. See 15 U.S.C. § 15. As a result, any person who is “injured in his business or property” due to
a violation of the Sherman Act, or other antitrust provisions, may bring a cause of action in federal court
and recover treble damages. Id.

8a
In 1943, the Supreme Court recognized that
states, “as sovereign[s],” are immune from antitrust liability when they impose anticompetitive restraints
on trade or commerce “as an act of government.” Parker v. Brown, 317 U.S. 341, 352 (1943). In reaching
this holding, the Supreme Court found “nothing in the
language of the Sherman Act or in its history which
suggests that its purpose was to restrain a state or its
officers or agents from activities directed by its legislature.”2 Id. at 350–51. State action immunity, however, did not extend to local governments. Instead,
more than thirty years after Parker, a series of Supreme Court decisions opened the door to substantial
municipal antitrust liability.
First, in 1978, the Court held that local governments were not automatically exempt from antitrust
2

Parker was decided during “the most vigorous period of antitrust enforcement in American history.” Michael J. Sandel, The
Constitution of the Procedural Republic: Liberal Rights and Civic
Virtues, 66 FORDHAM L. REV. 1, 9 (1997). The increase in antitrust
enforcement at the tail end of the Great Depression followed
President Franklin D. Roosevelt’s 1938 appointment of Thurmond Arnold as head of the Antitrust Division of the Department
of Justice. See id. But 1938 was not only a watershed year for
competition in the marketplace; it was also the year of “the greatest horserace in history” when an “undersized, crooked-legged
race horse” named Seabiscuit became a national hero by trouncing the legendary War Admiral. See Scott S. Brinkmeyer, A Winning Combination, 82-OCT MICH. B. J. 12, 12 & n.4 (2003). Ironically, early on, Seabiscuit seemed uninterested in racing. But
during one training session, after he caught sight of another
horse on the track, he took off with the ferocity and determination
that propelled him to success and fame. His trainer, Tom Smith,
at that moment remarked “sometimes they just hanker for a little
competition.” SEABISCUIT (DreamWorks Pictures 2003). Benitez
apparently “hankers” for the same.

9a
liability, recognizing the “serious economic dislocation
which could result if cities were free to place their own
parochial interests above the Nation’s economic goals
reflected in the antitrust laws . . . .” City of Lafayette,
La. v. La. Power & Light Co., 435 U.S. 389, 411–13
(1978). A plurality of the Court suggested, without deciding, that local governments were exempted only
when they acted “pursuant to state policy to displace
competition with regulation or monopoly public service” and when the state policy was “clearly articulated and affirmatively expressed.”3 Id. at 410, 413.
Four years later, the Court again addressed the issue
of a local government’s exemption from antitrust laws
in Community Communications Co., Inc. v. City of
Boulder, Colorado, 455 U.S. 40 (1982). There, the
Court held that Colorado’s Home Rule Amendment,
which vested local governments with the power to govern local affairs, did not constitute a clearly articulated and affirmatively expressed policy “to enact specific anticompetitive ordinances . . . .” Id. at 54–57.
After these decisions, antitrust litigation against
local governments spiked. See Sandcrest, 853 F.2d at
1142 (noting the pendency of more than one hundred
federal antitrust lawsuits when Congress was debating the Act). Recognizing the potential for large judgments and attorneys’ fees, which would be borne by
taxpayers, Congress passed the Act in order to
3

The Court also suggested that the municipal action must be
“actively supervised” by the state. Id. at 410. The Court addressed this issue in Town of Hallie v. City of Eau Claire, where
it held that “[o]nce it is clear that state authorization exists, there
is no need to require the State to supervise actively the municipality’s execution of what is a properly delegated function.” 471
U.S. 34, 47 (1985).

10a
legislatively shield local governments from antitrust
damages. See id.; see also Genty v. Resol. Trust Corp.,
937 F.2d 899, 914 n.8 (3d Cir. 1991) (“In response to
[Lafayette and Boulder] holding municipalities liable,
Congress subsequently amended the anti-trust laws to
exempt local government entities from liability for
damages arising under the antitrust statute.”). Thus,
the Act was passed to prevent taxpayers from bearing
the financial burden of their local governments’ anticompetitive activity and to allow local governments to
effectively govern without devoting significant time
and resources to antitrust litigation. The Act does not,
however, preclude lawsuits seeking injunctive relief.4
To that end, the Act provides that “[n]o damages,
interest on damages, costs, or attorney’s fees may be
recovered under section 4, 4A, or 4C of the Clayton Act
(15 U.S.C. § 15, 15a, or 15c) from any local government, or official or employee thereof acting in an official capacity.” 15 U.S.C. § 35(a) (emphasis added). A
“local government” is defined as follows:
(A) a city, county, parish, town, township, village, or any other general function governmental unit established by State law, or
(B) a school district, sanitary district, or any
other special function governmental unit established by State law in one or more States.
15 U.S.C. § 34(1).
4

A local government may, nonetheless, be immune from all
liability—including injunctive relief—if it “demonstrate[s] that it
is engaging in the challenged activity pursuant to a clearly expressed state policy” to displace competition. Town of Hallie, 471
U.S. at 40. In this instance, a local government is, in effect, afforded state action immunity.

11a
B.
With that background in mind, we turn to Benitez’s appeal.5 Benitez first claims that the Hospital Authority is not a “special function governmental unit”
under § 34(1)(B) because it does not share any of the
hallmarks of a governmental entity and does not have
any of the attendant powers associated with general
or special purpose “local government[s].” Benitez advances four arguments in support of his contention.
First, he argues that our Sandcrest decision did not
address the issues presented here and is, therefore,
not controlling. Second, he asserts that the Hospital
Authority does not share the functional characteristics
of the specific examples that precede “special function
governmental unit” in the Act—school districts and
sanitary districts—and does not exhibit the core governmental powers of “a city, county, parish, town,
township, village, or . . . other general function governmental unit established by State law,” such as the
power to tax, issue general obligation bonds or exercise
eminent domain. 15 U.S.C. § 34. Third, he argues that
5

We review the district court’s grant of the Hospital Authority’s Rule 12(c) motion de novo, applying the same legal standards
as the district court. See Priority Auto Grp., Inc. v. Ford Motor
Co., 757 F.3d 137, 139 (4th Cir. 2014). While courts “should strive
to resolve the immunity issue as early as possible, with a minimum of expense and time to the parties . . . in order to further the
purpose underlying the provision of immunity,” Sandcrest, 853
F.2d at 1148 n.9, a Rule 12(c) motion “should only be granted if,
‘accepting all well-pleaded allegations in the plaintiff’s complaint
as true and drawing all reasonable factual inferences from those
facts in the plaintiff’s favor, it appears certain that the plaintiff
cannot prove any set of facts in support of his claim entitling him
to relief.’” Priority Auto, 757 F.3d at 139 (quoting Edwards v. City
of Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999)).

12a
the Hospital Authority is not viewed by North Carolina as a traditional governmental body because it is
not immune from tort liability. Finally, he contends
that the Hospital Authority does not share the same
relationship with North Carolina as the other entities
listed in 15 U.S.C. § 34 because it is not a political subdivision of the state.
1.
Addressing each of Benitez’s arguments in turn,
we turn first to his claim that the district court erred
in interpreting Sandcrest. The district court determined that in Sandcrest, we held that a North Carolina quasi-municipal hospital, established pursuant to
the North Carolina Hospital Authorities Act, is a “special function governmental unit”—and thus a “local
government”—under the Act. It explained “[p]reviously, the Fourth Circuit has granted absolute immunity from antitrust damages to a municipal hospital established under Chapter 131E, upholding the determination that the hospital qualified as a ‘special
function government unit.’” J.A. 196 (citing Sandcrest,
853 F.2d 1139). Benitez argues that this interpretation of Sandcrest is incorrect. He contends that Sandcrest did not address, much less decide, the issues we
face here. We agree. Respectfully, the district court
and the Hospital Authority misread our decision in
Sandcrest.
In Sandcrest, a county hospital was established
under Chapter 131E of the North Carolina General
Statutes. That hospital, owned and operated by the
Cumberland County Hospital System, Inc., declined to
renew a contract with a professional association of
emergency room physicians. 853 F.2d at 1141. The
physicians filed an antitrust action against the county

13a
hospital authority, its corporate manager and several
individuals. Id. The district court granted summary
judgment in favor of all defendants, finding they were
entitled to immunity under the Act. Id.
On appeal, we noted that the physicians did not
challenge the district court’s determination that the
county hospital authority was a “local government.”
Id. at 1142. Instead, the physicians only argued that
the corporate manager and individual defendants
were not entitled to immunity. See id. This argument
implicated a different subsection of the Act, which provides that monetary damages may not be recovered “in
any claim against a person based on any official action
directed by a local government, or official or employee
thereof acting in an official capacity.” 15 U.S.C.
§ 36(a). Thus, while we assumed that the county hospital authority was a “local government” for purposes
of this analysis, we did so only because the physicians
did not appeal the district court’s finding.6 See Sandcrest, 853 F.2d at 1142.
The Hospital Authority, in an attempt to buttress
the district court’s analysis of Sandcrest, argues that
we could not have determined that the defendants
were immune “unless [we] also concluded the county
hospital system constituted a unit of local government.” Br. of Appellee at 41. But that would give an
assumption far more weight than it deserves. Appellate courts frequently assume unappealed findings to

6

We ultimately concluded that all defendants were entitled
to immunity because their conduct was “undertaken within the
scope of their authority and under adequate supervision” of the
county hospital authority and the county hospital’s board of trustees. Id. at 1146.

14a
be true, even when the underlying premise involves a
question of law. See, e.g., Campbell-Ewald Co. v.
Gomez, 577 U.S. 153, 160–66 (2016) (holding that “an
unaccepted settlement offer or offer of judgment does
not moot a plaintiff’s case” but noting that the Supreme Court had previously “simply assumed, without
deciding, that an offer of complete relief pursuant to
Rule 68, even if unaccepted, moots a plaintiff’s claim”
when a plaintiff did not challenge the lower court’s
finding on that point). Doing so efficiently allows
claims that are clearly presented, and perhaps dispositive, to be considered without unnecessarily deciding
issues.7 But, as we have previously held, “[w]e are
bound by holdings, not unwritten assumptions.” Fernandez v. Keisler, 502 F.3d 337, 343 n.2 (4th Cir.
2007). Accordingly, we write today on a blank slate.
2.
Benitez’s remaining three arguments can be considered together. They all suggest that “special function governmental unit” as described in § 34(1)(B) applies only to governmental entities with certain powers and/or characteristics—the power of taxation, immunity from tort liability and characterization as a political subdivision—that Benitez insists the Hospital
Authority lacks. To support this argument, he draws
7

There are many reasons assumptions arise in cases. Sometimes, like in Sandcrest, an issue was assumed because it was not
appealed by the parties. Other times, a court assumes an issue to
further an important doctrine like constitutional avoidance. See
United States v. Reed, 780 F.3d 260, 269 (4th Cir. 2015) (assuming a violation of the Confrontation Clause because any alleged
error “was harmless beyond a reasonable doubt”). Or there can be
other reasons. The key point here is that, regardless of the reason, assumptions are not holdings. Nor are they even dicta.

15a
on the legislative history of the Act, which he claims
reflects a desire to protect taxpayers from bearing the
burden of large antitrust awards. See, e.g., H.R. Rep.
No. 98-965, at 11 (1984) (“[P]ayment of any antitrust
judgment would ultimately be drawn from the ‘general
revenues,’ thus shifting the burden of the punitive
damage award . . . from the local officials to the ‘innocent’ taxpayers—a most misdirected and inequitable
result.”). According to Benitez, a governmental entity
that would not be required to increase taxes on its citizens to satisfy an antitrust damages award, or that
lacks the power to even do so, falls outside Congress’
intent in passing the Act.
If we were to look solely at the Act’s legislative
history, this argument might be persuasive. The argument falls short, however, when we evaluate the Act’s
actual text. The text includes none of the limitations
on a “special function governmental unit” that Benitez
advances. Congress could have defined “special function governmental unit” to only include those entities
that have the powers and characteristics Benitez describes. But it did not do so—not originally nor in the
thirty-seven years since its passage. Since Congress
did not include those limitations, we decline to impose
them. Our job is to interpret and apply the law, not to
make it.
Benitez insists, however, that the text actually
supports his arguments. He relies on the statutory interpretation principle noscitur a sociis—“a word is
known by the company it keeps.” Yates v. United
States, 574 U.S. 528, 543 (2015). According to Benitez,
“because ‘any other special function governmental
unit’ comes at the end of an illustrative list of examples, we should expect the ‘other’ units referred to here

16a
to share the most definitive elements of the illustrations (i.e., ‘school districts’ or ‘sanitary districts’).” Appellant’s Br. at 33. Put differently, Benitez claims that
the Hospital Authority must share the powers and
characteristics of school districts or sanitary districts
in order to be a “special function governmental unit.”
This argument is predicated on the idea that every
“school district” and “sanitary district” is a political
subdivision, with the corresponding power to tax and
immunity from tort liability. For two reasons, we disagree.
First, as noted above, the plain text suggests otherwise. Tools of statutory construction like the one Benitez employs can be helpful. But we must not use
them in a way that contravenes plain statutory text.
Indeed, the Supreme Court has held that courts
should “rely on the principle of noscitur a sociis . . . to
‘avoid ascribing to one word a meaning so broad that
it is inconsistent with its accompanying words, thus
giving unintended breadth to the Acts of Congress.’”
Yates, 574 U.S. at 543 (quoting Gustafson v. Alloyd
Co., 513 U.S. 561, 575 (1995)). As discussed in more
detail below, we do not find the district court’s interpretation of “special function governmental unit” to diverge from the accompanying words in § 34(1)(B).
Second, the premise of Benitez’s argument is not
at all certain. Take, for example, the issue of taxation.
While many school districts and sanitary districts may
be fiscally independent and have the ability to raise
their own revenues, some states limit the power to tax
to the legislature or cities or counties. See, e.g., Marshall v. N. Va. Transp. Auth., 657 S.E.2d 71, 78–80
(Va. 2008) (discussing various provisions of the Virginia State Constitution that require a majority vote

17a
of the Virginia Senate and House of Delegates to impose a tax, unless a “special act for the organization,
government, and powers of any county, city, town, or
regional government” authorizes the power to tax).8
This leads to a paradox that exposes the fallacies of
Benitez’s arguments. Benitez argues that a “special
function governmental unit” must have the power to
tax because the two specific entities the Act lists—
school districts and sanitary districts—have that
power. But in some states, school districts and sanitary districts are prohibited from imposing taxes.9 See
id. Thus, the premise of Benitez’s argument is flawed.
For these reasons, we are unpersuaded that either
the Act’s text or the statutory interpretation principle
noscitur a sociis supports Benitez’s position.

8

In Marshall, the Supreme Court of Virginia invalidated a
statute that delegated the power of taxation to the Northern Virginia Transportation Authority (“NVTA”)—“a political subdivision narrowly charged by the General Assembly with the responsibility of addressing certain regional transportation issues in the
Northern Virginia localities it encompasses.” 657 S.E.2d at 79.
Relying on several state constitutional provisions, the Court held
that “NVTA is not a county, city, town, or regional government,
and thus it is not a political subdivision to which the General Assembly may constitutionally delegate its legislative taxing authority . . . .” Id.
9

According to a white paper issued by the North Carolina
School Board Association, school boards in most states are considered independent units of government. But others are not; instead, they are dependent on the general government. NCSBA,
FISCAL INDEPENDENCE ISSUE BRIEF, https://www.ncsba.org/wpcontent/uploads/2016/08/NCSBA-Fiscal-Independence-IssueBrief.pdf.

18a
3.
Without the limits advanced by Benitez, we turn
to the ultimate question of whether the Hospital Authority qualifies as a “special function governmental
unit” under the Act. The ultimate answer is a function
of federal law. But Congress’ pairing of the term “special function governmental unit” with the phrase “established by State law in one or more States” requires
that we also consider state law. Thus, we review the
Supreme Court of North Carolina’s recent decision in
DiCesare v. Charlotte-Mecklenburg Hospital Authority, 852 S.E.2d 146 (N.C. 2020), which involved statelaw unfair trade practices and antitrust claims arising
out of the same type of contractual steering restrictions at issue here.
In DiCesare, the Supreme Court of North Carolina
described the Hospital Authority’s creation and operation as follows:
The Hospital Authority was established in
1943 pursuant to the North Carolina Hospital
Authorities Act, N.C.G.S. §§ 131E-15 et seq.,
and is jointly chartered by Mecklenburg
County and the City of Charlotte. The Act
states that “[t]he General Assembly finds and
declares that in order to protect the public
health, safety, and welfare, including that of
low income persons, it is necessary that counties and cities be authorized to provide adequate hospital, medical, and health care and
that the provision of such care is a public purpose.” N.C.G.S. § 131E-1(b) (2019). The Act is
intended “to provide an alternate method for
counties and cities to provide hospital, medical, and health care,” id., and defines a

19a
hospital authority as “a public body and a
body corporate and politic organized under
the provisions of [the Act].” N.C.G.S. § 131E16(14). The Hospital Authority is governed by
a Board of Commissioners, whose members
are appointed by the mayor or chairman of
the county commission. N.C.G.S. § 131E17(b).
The Hospital Authority provides, among
other things, a suite of general acute care inpatient hospital services, including a broad
range of medical and surgical diagnostic and
treatment services, to individuals insured under group, fully-insured, and self-funded
healthcare plans. The Hospital Authority has
a large general acute-care hospital located in
downtown Charlotte and nine other general
acute-care hospitals in the Charlotte area.
There are at least two other inpatient hospitals or multi-hospital systems operating
within the Charlotte area: Novant, which operates five inpatient hospitals in the Charlotte area, and CaroMont Regional Medical
Center.
Id. at 148–49 (footnote omitted).
The Court further characterized the Hospital Authority as a “quasi-municipal corporation,” which was
“created ‘to serve a particular government purpose,’
with the General Assembly having ‘giv[en] to these
specially created agencies [certain] powers and call[ed]
upon them to perform such functions as the Legislature may deem best.’” Id. at 160–61 (alterations in
original) (quoting Greensboro-High Point Airport
Auth. v. Johnson, 36 S.E.2d 803, 809 (N.C. 1946)).

20a
Quasi-municipal corporations, such as the Hospital
Authority, are commonly used in North Carolina “to
perform ancillary functions in government more easily
and perfectly by devoting to them, because of their
character, special personnel, skill and care.” Id. at 161
(internal quotation marks omitted). “In such instances, ‘for purposes of government and for the benefit and service of the public, the [S]tate delegates portions of its sovereignty, to be exercised within particular portions of its territory, or for certain well-defined
public purposes.’” Id. (alteration in original) (quoting
Gentry v. Town of Hot Springs, 44 S.E.2d 85, 86 (N.C.
1947)).
Against this backdrop, the Court then detailed the
Hospital Authority’s “particular government purpose”
and the powers and functions delegated to it by the
North Carolina General Assembly. See id. at 160–61
(internal quotation marks omitted).
[T]he Hospital Authority was created in accordance with N.C.G.S. § 131E-17(a) when
the Charlotte city council adopted a resolution in which it “[found] that the public health
and welfare, including the health and welfare
of persons of low income in the City and said
surrounding area, require the construction,
maintenance, or operation of public hospital
facilities for the inhabitants thereof.” At that
point, the mayor of Charlotte appointed eighteen individuals to serve as commissioners of
the Hospital Authority pursuant to N.C.G.S.
§§ 131E-17(b), -18, with the mayor having
maintained the authority to remove commissioners “for inefficiency, neglect of duty, or
misconduct in office” in accordance with

21a
N.C.G.S. § 131E-22. The Hospital Authority
possesses the authority to acquire real property by eminent domain pursuant to N.C.G.S.
§ 131E-24 and to issue revenue bonds under
the Local Government Revenue Bond Act pursuant to N.C.G.S. § 131E-26. The Hospital
Authority is subject to annual audits by the
mayor or the chairman of the county commission pursuant to N.C.G.S. § 131E-29; to the
Public Records Law, and to regulation by the
Local Government Commission. In sum, the
Hospital Authority was clearly created by the
City of Charlotte, pursuant to statute, to provide public healthcare facilities for the benefit
of the municipality’s inhabitants.
Id. at 161 (citations omitted).
DiCesare’s thorough analysis provides a helpful
foundation for evaluating whether the Hospital Authority is a “special function governmental unit established by State law in one or more States.” See 15
U.S.C. § 34(1)(B). Undoubtedly, the Hospital Authority was “established by” North Carolina law. See DiCesare, 852 S.E.2d at 148–49 (“The Hospital Authority
was established in 1943 pursuant to the North Carolina Hospital Authorities Act, N.C.G.S. §§ 131E-15 et
seq., and is jointly chartered by Mecklenburg County
and the City of Charlotte.” (footnote omitted)). The legislative purpose of the Hospital Authorities Act is express: “The General Assembly finds and declares that
in order to protect the public health, safety, and welfare, including that of low income persons, it is necessary that counties and cities be authorized to provide
adequate hospital, medical, and health care and that
the provision of such care is a public purpose.”

22a
N.C.G.S. § 131E-15(b) (emphasis added). The Hospital
Authorities Act specifically defines a “hospital authority” as “a public body and a body corporate and politic
organized under the provisions of this [Act].” Id.
§ 131E-16(14). As the Supreme Court of North Carolina held in DiCesare, “[a]lthough quasi-municipal corporations are not subject to all of the requirements applicable to other governmental entities, it is clear that
their essential function is, at its core, the governmental provision of services.” 852 S.E.2d at 162.
Further, as the district court noted, the Hospital
Authority has many “powers which are typically characterized as governmental powers,” including the
power to:
(1) construct and maintain hospitals, (2) issue
bonds, (3) acquire real or personal property,
(4) establish a fee schedule for services received from hospital facilities and make the
services available regardless of ability to pay,
(5) contract with other governmental or public agencies, (6) lease any hospital facility to a
nonprofit corporation, and (7) to exercise the
power of eminent domain to acquire real property.
J.A. 195–96 n.7. To be sure, private hospitals also
share several of these powers, but the authority to acquire real property by eminent domain and the “power
to issue revenue bonds under the Local Government
Revenue Bond Act . . . for the purpose of acquiring,
constructing, . . . or operating hospital facilities” are
uniquely governmental powers. Id. §§ 131E-24, 26.
There is no magic combination of powers that a
governmental body must have to be classified as a

23a
“special function governmental unit.” However, those
of the Hospital Authority, as outlined by the Supreme
Court of North Carolina, readily qualify.
4.
We recognize that the Tenth Circuit, in Tarabishi
v. McAlester Regional Hospital, 951 F.2d 1558 (10th
Cir. 1991), reached a different conclusion in finding an
Oklahoma public trust hospital was not a “special
function governmental unit.” In reaching this conclusion, the Tenth Circuit was guided by two considerations: (1) that citizens of the Oklahoma city were beneficiaries of the public trust and would not be liable for
any antitrust damages award; and (2) state law
“viewed public trust hospitals as entities different
from political subdivisions.” Id. at 1566.
At first blush, Tarabishi is seemingly at odds with
our holding. After all, it, like Benitez, places significant emphasis on the Act’s legislative history. See id.
at 1564. There, the hospital “was formed as a trust for
furtherance of public functions under [Oklahoma state
law].” Id. at 1565 n.6. In contrast, the Hospital Authority is “a public body and a body corporate and politic
organized under the provisions of [the North Carolina
Hospital Authorities Act].” Id. § 131E-16(14). Importantly, however, Tarabishi recognized that how an
entity is classified under state law is critical and cited
to a variety of cases where hospitals were held to be
“local governments.” See Tarabishi, 951 F.2d at 1565–
66 (collecting cases). The Tenth Circuit did not question the validity of these cases and, instead, emphasized that the structure of a public trust hospital was
unique and distinguishable. See id. at 1566 (“None of
these cases directly answers the question of whether a
hospital operated as a public trust for furtherance of

24a
public functions with a city as its beneficiary should be
considered a special function governmental unit.”).
Indeed, we note that the Hospital Authority is far
more similar to the hospital in Sweeney v. Athens Regional Medical Center, which was distinguished by
Tarabishi, than to the public trust hospital in Tarabishi. See Sweeney, 705 F. Supp. 1556, 1561–62 (M.D.
Ga. 1989) (holding that Athens Regional Medical Center, “a public hospital authority organized under the
Georgia Hospital Authorities Law,” is a “local governmental unit for purposes of the Act” because it is
“deemed to exercise public and essential governmental
functions and shall have all the powers necessary or
convenient to carry out and effectuate the purposes
and provisions of [the Hospital Authorities Law]”
(quoting Ga. Code Ann. §§ 31-7-75, 77 (1985))). Thus,
while we reach a different result than Tarabishi, our
holding is not inconsistent with its reasoning.
In sum, we conclude that the Hospital Authority
is a “special function governmental unit” under the
Act.
C.
Having rejected Benitez’s primary argument, we
now turn to his alternative position. Benitez has consistently argued that even if the Hospital Authority
was a “local government” when it was established, it
has outgrown its immunity. Specifically, in response
to the Hospital Authority’s motion for judgment on the
pleadings, Benitez claimed that the Hospital Authority “now operates in 47 different locations spread
across North and South Carolina,” with nearly twothirds of those locations being located “outside the
Charlotte metropolitan area,” and “recently

25a
announced plans to open in Georgia.” J.A. 80–81. Because of this rapid expansion, Benitez argued that the
Hospital Authority “is not a local entity in any sense
of the term.” J.A. 90. Benitez insists this argument is
supported by the Act’s text because the Act “is the Local Government Antitrust Act, and by its terms applies only to ‘local government’ entities.” Appellant’s
Br. at 59.
The Hospital Authority offers several responses.
First, it argues the text does not support Benitez’s position. According to the Hospital Authority, if Congress intended to impose the limitation Benitez advances, it could easily have done so. But it did not. Instead, Congress defined “local government” to include
“a school district, sanitary district, or any other special
function governmental unit established by State law
in one or more States.” 15 U.S.C. § 34(1)(B). That
means, according to the Hospital Authority, any
boundaries, geographic or otherwise, depend on North
Carolina law.
Next, the Hospital Authority contends that the
Act’s “established by State law in one or more States”
language contemplates a “local government” that operates in more than one state. In fact, the Hospital Authority points to entities that operate in many states
that have been held immune as a “local government”
under the Act. See, e.g., Cap. Freight Servs., Inc. v.
Trailer Marine Transp. Corp., 704 F. Supp. 1190,
1199–1200 (S.D.N.Y. 1988) (finding that a Puerto Rican international shipping authority was a “local government” entitled to immunity under the Act and noting “there is no requirement that the governmental instrumentality have a geographically defined jurisdiction”).

26a
After carefully considering the parties’ arguments, we acknowledge that Benitez’s argument has
some initial appeal. It does seem unusual for an organization of the geographic and financial scope of the
Hospital Authority to qualify as a “local government.”
The problem with this argument, however, is that the
language of the Act does not support it. The text asks
only whether an organization qualifies as a “local government,” as defined by the Act. And that determination requires examining the state law applicable to the
entity’s creation. See 15 U.S.C. § 34(1)(B) (defining “local government” to include various entities “established by State law in one or more States”). As with
Benitez’s other argument, he asks us to re-write the
Act to impose a limitation it does not currently contain.
And even if we were to adopt Benitez’s position,
how would we determine the boundaries of a “local
government”? If an organization was able to simply
outgrow the Act’s protection, what would be the lines
that would disqualify it? Would they be financially
based? That would be difficult given that the revenues
of some cities, which are clearly “local government[s]”
under the Act, dwarf those of the Hospital Authority.10
Or would the limitations be geographic? If so, would
an entity cease to be “local” if it grew beyond the city
or county that created it, even if allowed by state law?
Would any growth beyond those borders be

10

For example, New York City’s budget in 2017 was approximately $85 billion. Understanding New York City’s Budget A
Guide, New York City Independent Budget Office at 2,
https://www.ibo.nyc.ny.us/iboreports/understandingthebudget.pdf.

27a
disqualifying? Or would it require going into another
state? In other words, how much growth is too much?
The answers to these questions involve complex
policy considerations. Navigating these considerations
is the work of lawmakers, not judges. It may make eminent sense to amend the Act to impose some sort of
limitation beyond which an entity could no longer
qualify as a “local government.” But if that is to be
done, it should be done by Congress, not us. Thus, we
reject Benitez’s argument that the Hospital Authority
has outgrown its status as a “local government.”
But our decision is limited to Benitez’s argument.
Benitez does not allege, for example, that the Hospital
Authority is operating outside the purview of a its statutory authority under North Carolina law or even that
it committed anticompetitive acts outside of the local
area where it was created. Indeed, as the Hospital Authority pointed out at oral argument, both Benitez’s
treatment and the alleged anti-competitive activity
took place in the Charlotte area. Because of that, Benitez’s allegations involve only “local” conduct.
There may be circumstances where a “special
function governmental unit” does not enjoy the Act’s
immunity. For example, if Benitez alleged that the
Hospital Authority was operating in contravention of
North Carolina law or if the Hospital Authority was
sued in Georgia involving alleged anticompetitive conduct in a Georgia geographic market, we might reach
a different conclusion. But since those issues are not
presented to us, we express no view on them and leave
them for another day.

28a
III.
For the reasons stated above, we agree with the
district court that the Hospital Authority is a “special
function governmental unit” and, therefore, a “local
government” under the Act. Accordingly, the district
court’s order is
AFFIRMED.

29a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
________________________________
No. 3:18-cv-00095-RJC-DCK
________________________________
RAYMOND BENITEZ, individually and on behalf of all
others similarly situated,
Plaintiff,
v.
THE CHARLOTTE-MECKLENBURG HOSPITAL
AUTHORITY, d/b/a Carolinas HealthCare System,
d/b/a Atrium Health,
Defendant.
________________________________
ORDER
________________________________
THIS MATTER comes before the Court on Charlotte-Mecklenburg Hospital Authority’s (“Defendant”)
Motion for Judgment on the Pleadings, (Doc. No. 22),
and the parties’ associated briefs and exhibits, (Doc.
Nos. 16, 20–21, 23, 29–30, 47). Having been fully
briefed, the matter is now ripe for adjudication.

30a
I.

BACKGROUND
A. The Governments’ Suit

This is the second time this Court confronts this
set of facts.1 On June 19, 2016, the United States Department of Justice and the State of North Carolina
(“the Governments”) filed suit against the CharlotteMecklenburg Hospital Authority d/b/a Carolinas
HealthCare System and Atrium Health (“Defendant”
or “Atrium”) seeking injunctive relief. Doc. No. 1: “Governments’ Complaint,” United States v. CharlotteMecklenburg Hosp. Auth., No. 3:16-cv-311 (W.D.N.C.
June 19, 2016) [hereinafter the Governments’ suit].
Defendant is a North Carolina not-for-profit corporation providing healthcare services with its principal
place of business in Charlotte. (Id. ¶ 1). Its flagship
facility is Carolinas Medical Center, a large general
acute-care hospital located in downtown Charlotte.
(Id.). Defendant also operates nine other general
acute-care hospitals in the Charlotte area. (Id.). The
Governments brought a civil antitrust action to enjoin
Defendant “from using unlawful contract restrictions

1

Additionally, there is a third lawsuit currently pending in
the North Carolina Business Court. DiCesare v. Charlotte-Mecklenburg Hospital Authority, No. 16-CVS-164043 (N.C. Sept. 9,
2016). This state class action alleges violations of North Carolina
law filed on behalf of residents of North Carolina who paid premiums to insurance companies that had Defendant in its network. Plaintiffs bring two claims against Defendant there: (1)
contract, combination, or conspiracy in restraint of trade in violation of N.C. Gen. Stat. §§ 75-1 and 75-2; and (2) monopolization
in violation of Article I, Section 34 of the North Carolina Constitution and N.C. Gen. Stat. §§ 75-1.1, 75-2, and 75-2.1. Doc. No. 1:
Complaint, DiCesare v. Charlotte-Mecklenburg Hospital Authority, No. 16-CVS-164043 (N.C. Sept. 9, 2016).

31a
that prohibit commercial health insurers in the Charlotte area from offering patients financial benefits to
use less-expensive healthcare services offered by
[Atrium’s] competitors.” (Id. at 1). The Governments
contend that “[t]hese steering restrictions2 reduce
competition resulting in harm to Charlotte area consumers, employers, and insurers.” (Id.). The Governments’ suit remains pending in this Court.
B. The Current Suit
Between July 4 and July 10, 2016, Raymond Benitez (“Plaintiff”), a Charlotte resident, used Atrium
general acute care inpatient hospital services3 for
seven overnight stays. (Doc. No. 1 ¶ 3, Benitez v. The
Charlotte-Mecklenburg Hosp. Auth., 3:18-cv-95
(W.D.N.C. Feb. 28, 2018) (i.e., the instant suit)).

2

“Steering is a method by which insurers offer consumers of
healthcare services options to reduce some of their healthcare expenses. Steering typically occurs when an insurer offers consumers a financial incentive to use a lower-cost provider or lower-cost
provider network, in order to lower their healthcare expenses.”
(Doc. No. 1 ¶ 12). The Governments and Plaintiff allege the following:
To protect itself against steering that would induce price
competition and potentially require [Atrium] to lower its
high prices, [Atrium] has imposed steering restrictions in its
contracts with insurers. These restrictions impede insurers
from providing financial incentives to patients to encourage
them to consider utilizing lower-cost but comparable or
higher quality alternative healthcare providers.
(Doc. No. 1 ¶ 14); Doc. No. 1 ¶ 7, United States v. Charlotte-Mecklenburg Hosp. Auth., No. 3:16-cv-311 (W.D.N.C. June 19, 2016).
3

“Acute inpatient hospital services consist of a broad group
of medical and surgical diagnostic and treatment services that
include a patient’s overnight stay in the hospital.” (Doc. No. 1 ¶ 20).

32a
Plaintiff sought treatment at Atrium’s flagship facility. At the time services were rendered, Plaintiff was
the dependent of Estelvina Coroas—a policy holder
who was insured under a health insurance policy issued under an agreement between Tyson Foods (i.e.,
the insured’s employer) and Blue Advantage Administrators of Arkansas (“Blue Advantage”), an operating
division of Arkansas Blue Cross and Blue Shield. (Doc.
No. 20: Ex. 1). Plaintiff incurred charges for his
healthcare services. (Id.). While insurance covered
most of these charges, Plaintiff paid Atrium $3,440.36
as a co-insurance payment. (Doc. No. 1 ¶¶ 3, 39) (“A
co-insurance payment is the percentage of the bill for
inpatient medical services paid directly by the insured
inpatient consumer, with the rest paid by the insurance company.”).
At the time Plaintiff received services from
Atrium, Defendant had a separate contract—a Network Participation Agreement, (Doc. No. 21: Ex. 5)—
with Blue Cross Blue Shield North Carolina
(“BCBSNC”). The Network Participation Agreement
required Atrium to treat any person presenting a
“Blue Card” as a member. A Blue Card establishes evidence of coverage through an affiliated Blue Cross
health plan. Under the terms of the Network Participation Agreement, Atrium treated Plaintiff as a Member of BCBSNC, which gave Plaintiff access to the discounted rates negotiated by BCBSNC with Defendant.
(Doc. No. 21). The primary policy on those records is
BCBS OOS PPO4 (“Blue Cross Blue Shield Out of

4

A PPO designates that this is a broad network plan which
has participating providers who provide healthcare at prenegotiated rates and discounts.

33a
State Preferred Provider Organization”). (Doc. No. 20).
The Network Participation Agreement authorizes Defendant to seek the collection of any deductibles or copayments, which are determined by the “Benefit
Plan”— “the particular set of health benefits and services provided or administered by [BCBSNC] that is
issued to an individual or to a Group.” (Doc. No. 21 at
3). Defendant does not set deductible or copayment
prices; rather, the insurers establish these costs.
Plaintiff’s central allegation, derivative from the
Governments’ suit, is that Atrium’s anti-competitive
steering restrictions drove up prices for inpatient services and thus inflated the amount of co-insurance he
paid. Plaintiff identifies the relevant product market
as “[t]he sale of general acute care inpatient hospital
services to insurers (‘acute inpatient hospital services’)” and the relevant geographic market as “no
larger than the Charlotte area.” (Id. ¶ 18).
On February 28, 2018—almost two years after the
Governments filed suit seeking injunctive relief
against Defendant—Plaintiff commenced the instant
suit against Defendant on behalf of himself and all
others similarly situated. (Doc. No. 1). In this proposed
class action for restraint of trade, Plaintiff seeks classwide damages and injunctive relief under Section One
of the Sherman Act, 15 U.S.C. § 1, and Sections 4 and
16 of the Clayton Act, 15 U.S.C. §§ 15, 26, against Defendant. (Doc. No. 1). The only difference between the
requested relief in Plaintiff’s suit as compared to the
Governments’ is that Plaintiff also seeks monetary
damages for Defendant’s alleged antitrust violations.
In his Complaint, Plaintiff references the Governments’ preexisting case and acknowledges that he “relies, in part, on the [Governments’] thorough

34a
assessments of the [Atrium] restraint of trade and
their conclusions as to what constitutes the public interest.” (Id. ¶ 17). Plaintiff characterizes the instant
suit as a “related action seek[ing] a remedy for consumers, who, as a result of [Atrium’s] unlawful conduct, have been forced to pay [Atrium] above-competitive prices for inpatient services through co-insurance
payments and other direct payments.” (Id. ¶ 2). Plaintiff seeks treble damages under 15 U.S.C. § 15 as recompense for the alleged violations of the Sherman Act
and injunctive relief to enjoin Defendant from continuing to use and implement anti-steering provisions in
its contracts with insurers.
II. LEGAL STANDARD
Rule 12(c) motions are governed by the same
standard as motions brought under Rule 12(b)(6). Occupy Columbia v. Haley, 738 F.3d 107, 115 (4th Cir.
2013). In its review of a Rule 12(b)(6) motion, “the
court should accept as true all well-pleaded allegations
and should view the complaint in a light most favorable to the plaintiff.” Mylan Labs Inc. v. Matakari,
7 F.3d 1130, 1134 (4th Cir. 1993) (internal citation
omitted). But the court need not accept allegations
that “contradict matters properly subject to judicial
notice or by exhibit.” Blankenship v. Manchin, 471
F.3d 523, 529 (4th Cir. 2006) (quoting Veney v. Wyche,
293 F.3d 726, 730 (4th Cir. 2002)). The court may consider the complaint, answer, and any materials attached to those pleadings or motions for judgment on
the pleadings “so long as they are integral to the complaint and authentic.” Philips v. Pitt Cnty. Mem.
Hosp., 572 F.3d 176, 180 (4th Cir. 2009); see also Fed
R. Civ. P. 10(c) (stating that “an exhibit to a pleading
is part of the pleading for all purposes.”). In contrast

35a
to a Rule 12(b)(6) motion, the court may consider the
answer as well on a motion brought pursuant to Rule
12(c). Alexander v. City of Greensboro, 801 F. Supp. 2d
429, 433 (M.D.N.C. 2011).
The plaintiff’s “[f]actual allegations must be
enough to raise a right to relief above the speculative
level.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
555 (2007). “[O]nce a claim has been stated adequately, it may be supported by showing any set of
facts consistent with the allegations in the complaint.”
Id. at 563. A complaint attacked by a Rule 12(b)(6) motion to dismiss will survive if it contains sufficient factual matter, accepted as true, to “state a claim to relief
that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Twombly, 550 U.S. at 570). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. at 678. Thus, the applicable
test on a motion for judgment on the pleadings is
whether, when viewed in the light most favorable to
the party against whom the motion is made, genuine
issues of material fact remain or whether the case can
be decided as a matter of law. Alexander, 801 F. Supp.
2d at 433.
III. DISCUSSION
Defendant moves for judgment on the pleadings
on two grounds: (1) the Local Government Antitrust
Act of 1984 (“LGAA”), 15 U.S.C. § 34 et seq., and the
“indirect purchaser” rule of Illinois Brick Co. v. Illinois, 431 U.S. 720 (1977), bar Plaintiff’s claim for

36a
monetary damages5 and (2) the doctrine of duplicative
litigation and concepts of antitrust standing6 bar
Plaintiff’s claim for injunctive relief. The Court addresses each argument in turn.
A. The LGAA Bars Plaintiff’s Claim for
Monetary Damages.
Under the LGAA, local governments are statutorily immune from antitrust claims seeking monetary
damages brought under Section 4 of the Clayton Act,
15 U.S.C. § 15, when acting in an official capacity. 15
U.S.C. § 35(a) (“No damages, interest on damages,
costs, or attorney's fees may be recovered under section 4, 4A, or 4C of the Clayton Act (15 U.S.C. 15, 15a,
or 15c) from any local government, or official or employee thereof acting in an official capacity.”). “The
Senate Report concluded that it was necessary to enact a statute that would “allow local governments to go
about their daily functions without the paralyzing fear
of antitrust lawsuits.” Sandcrest Outpatient Servs.,
P.A. v. Cumberland Cty. Hosp. Sys., Inc., 853 F.2d
1139, 1142 (4th Cir. 1988) (quoting S. Rep. No. 593,
98th Cong., 2d Sess. 2 (1984)).
The LGAA specifies that the term “local government” includes “a school district, sanitary district, or
any other special function governmental unit established by State law in one or more States.” Id. § 34.
5

Because the Court finds that the LGAA bars Plaintiff’s
claim for monetary damages, it does not address Defendant’s Illinois Brick argument.
6

Also, because the Court finds that this suit is duplicative of
the Governments’ preexisting suit and thus chooses to stay the
instant action until the Governments’ suit is resolved, it need not
reach Defendant’s standing argument either.

37a
Courts have noted that the LGAA’s language is “explicitly inclusive, not exclusive,” and is to be broadly
construed to apply to all aspects of local government
entities’ decision making. E.g., Zapata Gulf Marine
Corp. v. Puerto Rico Mar. Shipping Auth., 682 F. Supp.
1345, 1351 (E.D. La. 1988). “As such, the LGAA makes
no distinction between a local government’s ‘proprietary’ and ‘governmental’ activities. It applies even
when the local government acts as a market participant.” United Nat’l Maint., Inc. v. San Diego Convention Ctr. Corp., Inc., No. 07-CV-2172-AJB, 2012 WL
12845620, at *4 (S.D. Cal. Sept. 5, 2012) (quoting Palm
Springs Med. Clinic, Inc. v. Desert Hospital, 628
F. Supp. 454, 457 n.2, 458 n.3 (C.D. Cal. 1986)), aff’d
sub nom. United Nat’l Maint., Inc. v. San Diego Convention Ctr., Inc., 766 F.3d 1002 (9th Cir. 2014). The
determination of whether something qualifies as a
“special function governmental unit” turns on the
state law at issue. 15 U.S.C. § 34(b) (establishing that
the LGAA applies to special function governmental
units “established by State law”); see Tarabishi v.
McAlester Regional Hosp., 951 F.2d 1558, 1566 (10th
Cir. 1991) (analyzing “the question of the character of
a local entity under the LGAA” in part as “a question
of state law”).
Here, Defendant was created under Chapter 131E
of the North Carolina General Statutes (hereinafter,
Chapter 131E) as a public hospital authority—“a
North Carolina not-for-profit corporation providing
healthcare services with its principal place of business
in Charlotte.” (Doc. No. 1 ¶ 4; Doc. No. 16 ¶ 4). Under
the N.C. Hospital Authorities Act, § 131E, Art. 2, Pt.
B, Defendant is “a public body and a body corporate
and politic organized under [North Carolina law].”

38a
N.C. Gen. Stat. § 131E-16(14). North Carolina courts
have explained that the designation of “body politic”
under other North Carolina statutes “connote[s] a
body acting as government; i.e. exercising powers
which pertain exclusively to a government.” Student
Bar Ass’n Bd. of Governors, of Sch. Of Law, Univ. of
N.C. Chapel Hill v. Byrd, 239 S.E.2d 415, 420 (1977).
Municipal hospitals are also authorized under Chapter 131E as another form of a public hospital created
by state law. N.C. Gen. Stat. § 131E, Art. 2, Pt. 1. Under Chapter 131E, municipal hospitals and hospital
authorities have similar privileges, authorities, and
powers—powers which are typically characterized as
governmental powers.7 Notably, Chapter 131E gives
hospital authorities the power to “act as an agent for
the federal, State or local government in connection
with the acquisition, construction, operation or management of a hospital facility, or any part thereof.” Id.
§ 131E-23(a)(21). Hospitals formed under Chapter
131E are created to further public purposes. “A hospital authority may be created whenever a city council
or a county board of commissioners finds and adopts a
resolution finding that it is in the interest of the public
health and welfare to create a hospital authority.”
N.C. Gen. Stat. § 131E-17(a).

7

Compare N.C. Gen. Stat. § 131E-7, -10, -12, with § 131E-17, -23,
-24, -26. Some of these powers include the power to (1) construct
and maintain hospitals, (2) issue bonds, (3) acquire real or personal property, (4) establish a fee schedule for services received
from hospital facilities and make the services available regardless of ability to pay, (5) contract with other governmental or public agencies, (6) lease any hospital facility to a nonprofit corporation, and (7) to exercise the power of eminent domain to acquire
real property.

39a
Previously, the Fourth Circuit has granted absolute immunity from antitrust damages to a municipal
hospital established under Chapter 131E, upholding
the determination that the hospital qualified as a “special function government unit” under the LGAA.
Sandcrest Outpatient Servs. v. Cumberland Cty. Hosp.
Sys., Inc., 853 F.2d 1139 (4th Cir. 1988). District courts
within the Fourth Circuit—including this Court—
have echoed that conclusion: “the Fourth Circuit has
recently given clear expression to the absolute immunity provided by the LGAA” to both county hospitals
and their employees. Cohn v. Wilkes General Hosp.,
767 F. Supp. 111, 112 (W.D.N.C. 1991); see also, Advance Nursing Corp. v. S.C. Hosp. Ass’n, 2016 WL
6157490, at *5 (D.S.C. 2016) (granting absolute immunity from antitrust damages under the LGAA to
the government hospitals). By extension, then, Defendant—as a public hospital also formed under Chapter 131E for a public purpose to benefit the health and
welfare of the state—is also immune from antitrust
claims seeking monetary damages. This determination is consistent with decisions from other jurisdictions considering LGAA application to other states’ enabling statues for hospitals—statutes which are analogous to Chapter 131E.8 These decisions have found it

8

The main source Plaintiff uses to assert that Defendant is
not a governmental entity undermines his argument. Plaintiff
stakes almost his entire argument on a Tenth Circuit case, Tarabashi v. McAlester Regional Hosp., 951 F.2d 1558 (10th Cir.
1991), interpreting an Oklahoma state law that is distinguishable from Chapter 131E. For example, the Oklahoma statute provided that a “public trust hospital” would “exist as a legal entity
separate and distinct from the settlor and from the governmental

40a
instructive that the enabling statutes specifically reference the public purpose that the hospitals are to
serve and have pointed to statutory language characterizing the hospitals as a “public body corporate and
politic.” See, e.g., Sweeney v. Athens Reg’l Med. Ctr.,
705 F. Supp. 1556, 1561 (M.D. Ga. 1989) (applying
LGAA immunity to hospital authorities in Georgia).
They have also examined the powers given to hospitals
under the statutes and have found LGAA immunity
appropriate when those powers include the right to
“exercise public and essential governmental functions.” Id. As discussed supra, Defendant has such
powers.
entity that is its beneficiary,” but did not include any provision
establishing the hospital as a “public body” or “body politic.” See
Okla. Stat. An., tit. 60, § 176.1. The hospital in Tarabashi was
created under Oklahoma law as a “public trust hospital,” and the
city of McAlester was its beneficiary. Tarabashi, 951 F.2d at
1566. The Tenth Circuit expressly distinguished Sandcrest—
which applied LGAA immunity to a public hospital formed under
Chapter 131E—Sweeney, and cases from other jurisdictions with
enabling statutes similar to Chapter 131E, concluding that the
public hospitals qualified as governmental units: “[n]one of these
cases directly answers the question of whether a hospital operated as a public trust for furtherance of public functions with a
city as its beneficiary should be considered a special function governmental unit.” Id. at 1565–66. Therefore, by the Tenth Circuit’s
own admission, Tarabashi is not analogous to the case at hand.
Rather, the Tenth Circuit found the plaintiff’s argument persuasive that “Oklahoma law controls the question here, and thus the
interpretation of the status of a hospital under the laws of other
states is immaterial.” Id. at 1564. Accordingly, the interpretation
of the status of a hospital under Oklahoma law is irrelevant to
the case at hand. The Tarabashi decision reinforces the Fourth
Circuit’s finding in Sandcrest and the Court’s decision today that,
under North Carolina law, the LGAA immunizes Defendant as a
special function governmental unit formed under Chapter 131E.

41a
The determination of whether the LGAA applies
is a question of law—an “objective one[ ]” that is best
made during the beginning stages of a case. Sandcrest,
853 F.2d at 1148, 1148 n.9 (“[A] court should strive to
resolve the immunity issue as early as possible, with a
minimum of expense and time to the parties.”). The
Fourth Circuit reasoned that waiting to determine the
applicability of LGAA immunity until after broadranging discovery and a trial on the merits would vitiate the underlying purpose of the LGAA. Id. at 1148
(“This would be incompatible with the underlying purpose of the LGAA, that is to protect such defendants
not only from damages but also from the expense and
time required to litigate such a case.”). Thus, the Court
finds it proper to make the LGAA-immunity determination now. According to the plain text of Chapter
131E, the statute under which Defendant was formed,
as well as the functions Defendant performs and powers Defendant possesses, Defendant is a special governmental unit under the LGAA. Therefore, the LGAA
shields Defendant from antitrust claims for monetary
damages.
B. Injunctive Relief
“The LGAA does not extend its immunity to injunctive relief.” R. Ernest Cohn, D.C., D.A.B.C.O. v.
Bond, 953 F.2d 154, 158 (4th Cir. 1991). While the
LGAA immunizes Defendant from Plaintiff’s claim for
monetary damages, it does not bar Plaintiff’s claim for
injunctive relief. In addition to his claim for monetary
damages, Plaintiff also seeks injunctive relief, requesting that the Court “permanently enjoin Defendant from continuing the conspiracy and unlawful actions . . . under Section 16 of the Clayton Act, 15 U.S.C.
§ 26.” (Doc. No. 1 at 15). That is, Plaintiff requests that

42a
Defendant be enjoined from using and enforcing antisteering provisions in its contracts with insurers. As
the parties concede, Plaintiff’s injunctive request is
identical to the Governments’ requested relief in the
preexisting action currently pending in this Court.
Thus, the resolution of the Governments’ preexisting
suit would fully resolve the matters at issue in this
case.
“When two suits are pending before federal district courts, the general principle is to avoid duplicative litigation.” State Farm Life Ins. Co. v. Bolin, No.
5:11-CV-1, 2011 WL 1810591, at *2 (W.D.N.C. May 11,
2011). “Trial courts are afforded broad discretion in determining whether to stay or dismiss litigation in order to avoid duplicating a proceeding already pending
in another federal court.” I.A. Durbin, Inc. v. Jefferson
Nat. Bank, 793 F.2d 1541, 1551–52 (11th Cir. 1986).
Accordingly, in order to conserve judicial resources
and avoid duplicative litigation, the Court hereby
stays this later-in time-proceeding pending a resolution of the government complaint.
IV. CONCLUSION
IT IS THEREFORE ORDERED THAT Defendant’s Motion for Judgment on the Pleadings, (Doc. No.
22), is GRANTED IN PART and STAYED IN PART.
Specifically, Plaintiff’s claim for monetary damages
under Section 4 of the Clayton Act, 15 U.S.C. § 15, is
DISMISSED. Plaintiff’s claim for injunctive relief is

43a
STAYED pending the resolution of the Governments’
preexisting suit against Defendant.
Signed: March 4, 2019
s/
Robert J. Conrad, Jr.
United States District Judge

44a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
________________________________
No. 3:18-cv-00095-RJC-DCK
________________________________
RAYMOND BENITEZ, individually and on behalf of all
others similarly situated,
Plaintiff,
v.
THE CHARLOTTE-MECKLENBURG HOSPITAL
AUTHORITY, d/b/a Carolinas Healthcare System,
d/b/a Atrium Health,
Defendant.
________________________________
ORDER
________________________________
THIS MATTER comes before the Court on Defendant’s Renewed Motion for Judgment on the Pleadings. (Doc. No. 57.)
Plaintiff Raymond Benitez (“Plaintiff”) initiated
this action against Defendant Charlotte-Mecklenburg
Hospital Authority (“Defendant”) on February 28,
2018 with the filing of a Complaint. (Doc. No. 1.) Plaintiff’s Complaint relies on an earlier action against Defendant, United States v. Charlotte-Mecklenburg
Hosp. Auth., No. 3:16-cv-311 (W.D.N.C. June 19,
2016). In that case, the United States Department of
Justice and the State of North Carolina (the

45a
“Governments”) sought to enjoin Defendant from using unlawful contract restrictions that prohibit commercial health insurers in the Charlotte area from offering patients financial benefits to use less expensive
healthcare services offered by Defendant’s competitors
(the “anti-competitive steering restrictions”). In this
case, Plaintiff’s central allegation, derivative from the
Governments’ suit, is that Defendant’s anti-competitive steering restrictions drove up prices for inpatient
services and thus inflated the amount of co-insurance
Plaintiff paid. Plaintiff sought class-wide damages and
injunctive relief under Section One of the Sherman
Act, 15 U.S.C. § 1, and Sections 4 and 16 of the Clayton
Act, 15 U.S.C. §§ 15, 26.
On March 4, 2019, this Court entered an order,
(Doc. No. 56), granting in part and staying in part Defendant’s Motion for Judgment on the Pleadings. The
Court granted the motion as to Plaintiff’s claim for
monetary damages. The Court stayed Plaintiff’s claim
for injunctive relief pending the resolution of the Governments’ suit, recognizing that “Plaintiff’s injunctive
request is identical to the Governments’ requested relief in the preexisting action currently pending in this
Court. Thus, the resolution of the Governments’ preexisting suit would fully resolve the matters at issue in
this case.” (Doc. No. 56, at 13.) This is precisely what
occurred.
On April 24, 2019, the Court entered a Final Judgment in the Governments’ suit, which included injunctive relief in which Defendant agreed not to enforce
specified clauses in its agreements with Blue Cross
Blue Shield of North Carolina—the health insurance
carrier whose rates and agreement with Defendant

46a
the Plaintiff claimed violated the Sherman Act. (Doc.
No. 58, at Ex. A.)
Defendant asserts that the Final Judgment in the
Governments’ suit renders Plaintiff’s remaining claim
for injunctive relief moot. As evidenced by his Statement of Non-Opposition, Plaintiff does not oppose Defendant’s Renewed Motion for Judgment on the Pleadings. (Doc. No. 59.)
IT IS THEREFORE ORDERED that Defendant’s Renewed Motion for Judgment on the Pleadings,
(Doc. No. 57), is GRANTED. Plaintiff’s claim for injunctive relief is dismissed with prejudice. The Clerk
of Court is directed to close this case.
Signed: October 8, 2019
s/
Robert J. Conrad, Jr.
United States District Judge

